No. 20A96
IN THE

~upreme Qtourt of tbe Wniteb ~tat~
DANVILLE CHRISTIAN ACADEMY, INC., COMMONWEALTH OF KENTUCKY,
ex rel. ATTORNEYGENERALDANIELCAMERON,

Applicants,
V.

ANDREW BESHEAR, in his official capacity as Governor of Kentucky,

Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief of
38 United States Senators as Amici Curiae in Support of Application to Vacate the
Sixth Circuit's Stay, in Danville Christian Academy v. Beshear, No. 20A96, complies
with the word limitations, as it contains 2,845 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 4, 2020

